CERTIFICATE OF COMPLIANCE

No. 20-5119
WAYNE POWELL,
Petitioner,
v.
STATE OF OHIO
Respondent,

As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition contains 5,434
words, excluding the parts of the Brief in that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

as

Evy M. Jarrett

Assistant Prosecuting Attorney
Lucas County Prosecutor's Office
Lucas County Courthouse
Toledo, Ohio 43604

(419) 213-2001
